            INDEPENDENT ACCOUNTANT’S REPORT ON
          APPLYING AGREED-UPON PROCEDURES FOR THE
       RETIREMENT, HEALTH BENEFITS, AND LIFE INSURANCE
WITHHOLDINGS/CONTRIBUTIONS AND THE MARCH 31, 2004 SUPPLEMENTAL
       SEMIANNUAL HEADCOUNT REPORT SUBMITTED TO THE
              OFFICE OF PERSONNEL MANAGEMENT

             FOR THE YEAR ENDED SEPTEMBER 30, 2004




                  R. Navarro & Associates, Inc.
                    Certified Public Accountants




                                              Report Number: 22-05-002-13-001
                                              Date Issued: October 7, 2004
                                                                   Table of Contents


ACRONYMS................................................................................................................................................................. i

EXECUTIVE SUMMARY............................................................................................................................................1

INDEPENDENT ACCOUNTANT’S REPORT
   ON APPLYING AGREED-UPON PROCEDURES ..............................................................................................2

AGREED-UPON PROCEDURES AND RESULTS.....................................................................................................3

MANAGEMENT'S RESPONSE TO RESULTS...........................................................................................................9
                                 ACRONYMS


AICPA    American Institute of Certified Public Accountants
APO      Agency Payroll Office
CFO      Chief Financial Officer
CSRS     Civil Service Retirement System
DOL      Department of Labor
DOLAR$   Department of Labor Accounting and Related Systems
EE       Employee Express
FEHB     Federal Employee Health Benefits
FERS     Federal Employee Retirement System
GAO      Government Accountability Office
IDEA     Interactive Data Extraction & Analysis
OA       Office of Audit
OASAM    Office of the Assistant Secretary for Administration and Management
OCFO     Office of Chief Financial Officer
OIG      Office of Inspector General
OMB      Office of Management and Budget
OPF      Official Personnel File
OPM      Office of Personnel Management
POI      Personnel Office Indicator
PP       PeoplePower
PP/PT    PeoplePower/PeopleTime
RITS     Retirement and Insurance Transfer System
SF       Standard Form
SGL      Standard General Ledger




                                        i
                                    EXECUTIVE SUMMARY


We performed the procedures specified in OMB Bulletin 01-02, Audit Requirements for Federal Financial
Statements, Agreed-Upon Procedures, Appendix I-1, as amended by OMB Memorandum 04-22, to assist the
U.S. Office of Personnel Management (OPM) in assessing the reasonableness of retirement, health benefits,
and life insurance withholdings/contributions, as well as enrollment information submitted via the
Supplemental Semiannual Headcount Report.

This report includes the agreed-upon procedures and the results from applying those procedures for
retirement, health benefits, and life insurance withholdings/contributions, and employee headcount
information submitted to OPM.

The agreed-upon procedures included U.S. Department of Labor personnel and payroll information for the
semiannual period ended March 31, 2004. Agreed-upon procedures generally comprised comparative and
analytical functions. As required by the agreed-upon procedures, we used a random sample selection
methodology.

Discrepancies were present in AUP steps 2 and 4.

Our procedures were performed in accordance with attestation standards established by the American Institute
of Certified Public Accountants and Government Auditing Standards issued by the Comptroller General of
the United States.




                                                     1
                       INDEPENDENT ACCOUNTANT’S REPORT ON
                         APPLYING AGREED-UPON PROCEDURES

The Honorable Harvey D. Thorp
Assistant Inspector General for Audits
U.S. Office of Personnel Management
Office of Inspector General

We have performed the procedures described in OMB Bulletin 01-02, Audit Requirements for Federal Financial
Statements, Agreed-Upon Procedures, Appendix I-1, as amended by OMB Memorandum 04-22, which were agreed to by
the Inspector General, the Chief Financial Officer, and the Associate Director for Retirement and Insurance Service of
the U.S. Office of Personnel Management (OPM), solely to assist OPM with respect to the reasonableness of
employment withholdings and employer contributions reported on the Report of Withholdings and Contributions for
Health Benefits, Life Insurance, and Retirement for the payroll periods ended January 24, 2004, March 6, 2004, and
April 3, 2004; and the Supplemental Semiannual Headcount Report as of March 16, 2004. The U.S. Department of
Labor’s management is responsible for the employment withholdings and employer contributions reported on the Report
of Withholdings and Contributions for Health Benefits, Life Insurance, and Retirement for the payroll periods ended
January 24, 2004, March 6, 2004, and April 3, 2004; and the Supplemental Semiannual Headcount Report as of March
16, 2004. This engagement to apply agreed-upon procedures was conducted in accordance with the attestation standards
established by the American Institute of Certified Public Accountants and Government Auditing Standards issued by the
Comptroller General of the United States. The sufficiency of these procedures is solely the responsibility of the
Inspector General, the Chief Financial Officer, and the Associate Director for Retirement and Insurance of OPM.
Consequently, we make no representation regarding the sufficiency of the procedures described below either for the
purpose for which this report has been requested or for any other purpose.

The agreed-upon procedures and related results of procedures are included in the attached AGREED-UPON
PROCEDURES AND RESULTS.

We were not engaged to, and did not, perform an audit, the objective of which would be the expression of an opinion on
the withholding and contributions of Health Benefits, Life Insurance, and Retirement and the employee Headcount
Report of the U.S. Department of Labor. Accordingly, we do not express such an opinion. Had we performed additional
procedures, other matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the Inspector General, the Chief Financial Officer, and the
Associate Director for Retirement and Insurance of OPM and is not intended to be and should not be used by anyone
other than these specified parties. This report should not be used by those who have not agreed to the procedures and
taken responsibility for the sufficiency of the procedures for their purposes.




October 7, 2004

Cc:      Clarence C. Crawford, Chief Financial Officer, Office of Personnel Management
         Kathleen M. McGettigan, Deputy Associate Director, Center for Retirement & Insurance Services Program,
         Office of Personnel Management
                    AGREED-UPON PROCEDURES AND RESULTS

Step       Agreed-Upon Procedures Performed                             Results of Procedures
1a     Foot the payroll register or payroll data file    We footed, without exception, the payroll
       that contains the payroll information.            information.
1b     Foot the RITS submission selected.                We footed, without exception, the payroll
                                                         information from the RITS submissions.
1c     Trace employee withholding information            We traced the footed payroll withholding to the
       shown on the footed payroll information for       corresponding amounts on RITS submissions
       retirement, health, and life insurance benefits   selected for the AUP. There were no differences
       (as adjusted for reconciling items) to the        greater than 1 percent, therefore no explanations
       related amounts shown on the RITS                 were required.
       submission for the corresponding period.
       Report any differences greater than 1%.
       Obtain and report explanations for those
       differences above the threshold.
2a     Randomly select a total of 25 individuals who     We used the PP/ PT database provided and
       were on the payroll system for all three of the   extracted three selected pay periods using IDEA
       RITS submissions selected for testing that also   software. We then used IDEA to select a random
       meet the criteria set forth in OMB Bulletin 01-   sample of 25 national office employees from the
       02, Appendix I-1, Agreed-Upon Procedures, as      three pay periods selected and verified that the
       amended by OMB Memorandum 04-22.                  selected sample met the criteria in OMB Bulletin
                                                         01-02, Appendix I-1, Agreed-Upon Procedures, as
                                                         amended by OMB Memorandum 04-22.
2b     Obtain the following documents, either in         All documents listed in OMB Bulletin 01-02,
       electronic or hard copy format, from the OPFs     Appendix I-1, Agreed-Upon Procedures, step 2b for
       for each individual selected in step 2a:          the selected individuals were obtained from the
       • all Notifications of Personnel Actions (SF-     OPFs.
           50) covering the pay periods in the RITS
           submissions chosen;
       • the Health Benefits Registration Form
           (SF—2809) covering the pay periods in
           the RITS submission chosen; and
       • the Life Insurance Election Form (SF-
           2817) covering the pay periods in the
           RITS submission chosen.
2c     Request a report from Employee Express for        All necessary Employee Express (EE) files were
       any Health Benefits transactions in that system   viewed. All applicable transaction dates were
       for the individuals selected in step 2a.          matched to those on the certified copies of the SF-
       Compare the date of the transaction with the      2809s. All of the health benefits information to be
       date on the certified copy of the SF-2809         used in the step 2g covered the pay periods in the
       requested in step 2b.                             RITS submissions chosen.
       Confirm that the health benefits information to
       be used in the step 2g covers the pay periods
       in the RITS submissions chosen.



                                                  3
Step       Agreed-Upon Procedures Performed                           Results of Procedures
2d     Verify that the base salary used for payroll     We verified, with 4 exceptions, that the base salary
       purposes agrees with the base salary reflected   shown on the payroll register agreed with the
       on the employee’s SF-50.                         approved base salary reflected on the employee’s
       Report any differences.                          Personnel Action, SF-50.

                                                        Sample 2 - 2.25% Difference
                                                        Sample 5 - 2.26% Difference
                                                        Sample 7 - 2.25% Difference
                                                        Sample 17 - 2.25% Difference
2e     For Retirement, compare the plan code on the     We verified, without exception, that the retirement
       employees’ SF-50 to the plan code used in the    plan code on the employees’ SF-50 agrees to the
       payroll system.                                  plan code used in the payroll system.
       Report any differences.
2f     Calculate the retirement amount to be withheld   Actual and calculated withholding and contribution
       and contributed for the plan code from the       agreed without exception.
       employees’ SF-50, based upon the official
       withholding and contribution rates required by
       law.
       Compare to actual amounts withheld and
       contributed.
       Report any differences.
2g     For health benefits, verify that the employee    We verified, with 3 exceptions, that the employee
       withholdings and agency contributions agree      withholdings and agency contributions agreed with
       with the official subscription rates issued by   the official subscription rates issued by OPM for the
       OPM for the plan and option elected, as          plan and option elected, as documented by form SF
       documented by form SF 2809 in the                2809 in the employees OPF or through Employee
       employees OPF or through Employee Express.       Express.
       Report any differences.
                                                        For samples 3, 5, & 24 the documented FEHB plan
                                                        elections on the SF-2809 differed with the
                                                        documented elections in PeoplePower. As a result
                                                        of these differences, there were also differences in
                                                        the auditor calculation for plan withholdings and
                                                        contributions and the recorded withholdings and
                                                        contributions in PeoplePower.
2h     For life insurance, verify that Basic Life       We verified, with 1 exception, that Basic Life
       Insurance was elected by the employees, as       Insurance coverage was elected by the employees.
       documented by a SF 2817 in the employees’
       OPF.
                                                        Sample 10 waived FEGLI on 2/5/86. No election
       Report any differences
                                                        was documented in the OPF since.




                                                 4
Step       Agreed-Upon Procedures Performed                       Results of Procedures
2i     Calculate the withholding and contribution     Calculated FEGLI withholding and contribution
       amounts for basic life insurance using the     amounts agreed to actual amounts without
       following:                                     exception.
       For employee withholdings: Round the
       employee’s annual base salary to the nearest
       thousand dollars and add $2,000. Divide this
       total by 1,000 and multiply by $0.150 (for
       APOs with biweekly pay periods).
       For agency contributions:       Divide the
       employee withholdings calculated above by 2.
       Compare to actual amounts withheld and
       contributed.
       Report any differences.
2j     For Life Insurance, compare the optional       We verified, with 2 exceptions, that the optional
       coverage elected as documented by an SF-       coverage elected as documented by an SF-2817 in
       2817 in the employees’ OPF with optional       the employees’ OPF agreed with optional coverage
       coverage documented in the payroll system.     documented in the payroll system.
       Report any differences.
                                                      Sample 3 – SF-2817 indicated 1 Option B election.
                                                       PP/PT indicated 2.
                                                      Sample 10 – The most recent SF-2817 indicated
                                                      Life Insurance was waived. PP/PT indicated Life
                                                      Insurance was elected with 5 Options B Multiples.




                                               5
Step       Agreed-Upon Procedures Performed                           Results of Procedures
2k     Calculate the withholding amounts for the        We verified, without exception, that Optional Life
       optional life insurance coverage using the       Insurance Option A and Option C withholdings
       following:                                       agreed to the amounts calculated using the criteria
       For Option A: Determine the employee’s age       provided by OPM. Option B was verified with 2
       group using the age groups provided for          exceptions.
       Option A in the FEGLI Program Booklet. The
       withholding amount is the rate listed in the
                                                        Option B exceptions:
       FEGLI Program Booklet for that age group.
       Compare to amount withheld. Report any           Sample 3 – (50.0%)
       differences.                                     Sample 10 – (100%)

       For Option B: Inspect the SF-2817 to             Auditor’s Note:
       determine the number of multiples chosen for
       Option B. Determine the employee’s age           Sample 3 – SF-2817 indicated 1 Option B election.
       group using the age groups provided for           PP/PT indicated 2.
       Option B in the FEGLI Program Booklet.           Sample 10 – The most recent SF-2817 indicated
       Round the employee’s annual rate of basic pay    Life Insurance was waived. PP/PT indicated Life
       up to the next 1,000, and multiply by the rate   Insurance is elected with 5 Options B Multiples.
       for the age group. Multiply this amount by the
       number of multiples chosen. Compare to
       amounts withheld. Report any differences.

       For Option C: Inspect the SF-2817 to
       determine the number of multiples chosen for
       Option C. Determine the employee’s age
       group using the age groups provided for
       Option C in the FEGLI Program Booklet.
       Multiply the rate for the age group by the
       number of multiples chosen.
       Compare to amount withheld.
       Report any differences.
3      Randomly select a total of 10 employees who      We verified, without exception, that Health Benefits
       have no Health Benefits from the three pay       were not elected by the selected employees.
       periods selected for testing.
       Verify that the employees did not elect Health
       Benefits coverage.
       Report any exceptions.
4      Randomly select a total of 10 employees who      We verified, with 1 exception, that the selected
       have no Life Insurance withholdings from the     employees did not elect Life Insurance coverage.
       three pay periods selected for testing.
       Verify that the employees either waived or       Sample 3 did not have a Life Insurance Election
       canceled Life Insurance coverage.                Form in their OPF.
       Report any exceptions.
5a     Obtain existing payroll information supporting   Payroll information supporting the Semiannual
       the selected Supplemental Semiannual             Headcount report was obtained.
       Headcount report.



                                                 6
Step       Agreed-Upon Procedures Performed                               Results of Procedures
5b     Calculate the headcount by counting the             We calculated 16,179 employees in the payroll data
       number of employees (using a computer audit         file using a computer audit routine.
       routine) on the payroll data file for the period.
5c     Compare the results of payroll information          We compared the results of the payroll information
       from step 5a with the calculated headcount          (steps 5a/5b) with the Semiannual Headcount
       from step 5b to the information shown on the        Report.
       Semiannual Headcount Report.
5d     Report any differences greater than 2 percent       There was a difference between the calculated
       between the agency’s Semiannual Headcount           headcount and the Semiannual Headcount Report of
       Report and the payroll information from step        16 employees, or 0.10 percent.
       5a and the calculated headcount from step 5b.
6a     Calculate Retirement withholdings and               All variances between the calculated retirement
       contributions by multiplying the CSRS and           withholding amounts and the RITS submissions
       FERS payroll base by the withholding and            were less than 5 percent.
       employer contribution rates required by law.
       Compare the calculated totals with related
       amounts shown on the RITS submissions.
       Report any variance greater than 5 percent.
6b     Calculate Health Benefit withholdings and           All variances between the calculated health benefits
       contributions by multiplying the number of          withholding amounts and the RITS submissions
       employees enrolled in each Health Benefit           were less than 5 percent.
       plan and plan option by the employee
       withholdings and employer contributions for
       the plan and option. Sum the totals and
       compare the result with the RITS submission.
       Report any variances greater than 5 percent.
6c     Calculate the Basic Life insurance                  All variances between the calculated basic life
       withholdings and contributions as follows:          insurance withholding amounts and the RITS
       For employee withholdings: Add the product          submissions were less than 5 percent.
       of 2,000 times the number of employees with
       Basic Life Insurance coverage to the aggregate
       annual basic pay for all employees selected.
       This represents the estimated Basic Life
       Insurance coverage. Divide this total by 1,000
       and multiply by $0.155 (for APOs with
       biweekly pay periods. Compare the results
       with the RITS submission.
       For agency contributions: Divide the
       employee withholdings by 2 – this
       approximates agency contributions, which are
       one-half of employee withholdings.
       Compare the results with the RITS
       submission.
       Report any variances greater than 5 percent.




                                                    7
Step       Agreed-Upon Procedures Performed                            Results of Procedures
6d     Calculate the Option A, Option B, and Option      There were no differences greater than 2 percent
       C Life Insurance coverage withholdings for        for Option A, Option B, or Option C.
       the three pay periods selected by using the
       results of payroll system queries from step 6a.
       Multiply the number of employees in each age
       group by the appropriate rate for Option A in
       accordance with the rate for age groups
       provided in the FEGLI Program Booklet.
       Report any differences greater than 2 percent.
       Divide the reports for Option B and Option C
       insurance into the age groups shown in the
       FEGLI Program Booklet. For Option B,
       round the employee’s annual rate of basic pay
       up to the next 1,000, divide by 1,000, multiply
       by the rate for the age group, multiply this by
       the number of multiples.
       For Option C, multiply the rate for the age
       group B the number of multiples chosen for
       each employee.
       Report any differences (i.e., gross rather than
       net) greater than 2 percent of the amounts on
       the RITS submission for Option B and/or
       Option C.




                                                  8
            MANAGEMENT’S RESPONSE TO RESULTS OF PROCEDURES

The following are Management’s responses to differences noted in the reported results to the
Agreed-Upon Procedures:


At the time the report was issued, we had not received an official signed response from
Management concerning the differences noted in the results of procedures.




                                                9
